           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   FOLLOW-UP: THE SOCIAL SECURITY
   ADMINISTRATION’S CONTROLS OVER
  SUSPENDING COLLECTION EFFORTS ON
       TITLE XVI OVERPAYMENTS

    September 2009   A-04-09-19039




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   September 2, 2009                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up: The Social Security Administration’s Controls over Suspending Collection
        Efforts on Title XVI Overpayments (A-04-09-19039)


        OBJECTIVE
        Our objectives were to evaluate the Social Security Administration’s (SSA) controls over
        suspending the collection of Title XVI overpayments and determine whether personnel
        complied with existing policies and procedures. Additionally, we determined the status
        of corrective actions SSA took to address recommendations in our April 2005 report,
        The Social Security Administration’s Controls over the Suspension of Title XVI
        Overpayment Collection Efforts.

        BACKGROUND
        Title XVI of the Social Security Act established the Supplemental Security Income (SSI)
        program to provide income to financially needy individuals who are aged, blind, or
        disabled. 1 To determine an individual’s initial eligibility for the program, payment
        amounts, and periodic payment redeterminations, SSA relies heavily on the individual’s
        self-disclosure of all his or her income sources. Because an SSI recipient’s
        determination factors, such as financial status, marital status, and living arrangements,
        frequently vary over time, SSI payments may be error-prone and result in
        overpayments.

        When a Title XVI overpayment occurs, SSA can suspend collection of the debt in
        certain situations. Specifically, collection efforts can be suspended when a recipient is
        not in current payment status and previous collection efforts have determined the
        individual is unable to repay, unwilling to repay, cannot be located, or is out of the
        country. Suspension decisions allow SSA to stop unproductive collection efforts.
        Because a suspended overpayment is not waived or written off as uncollectible, SSA




        1
            The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.
Page 2 - The Commissioner


has the option to initiate collection efforts at a later date if a change in the debtor’s 2
status may lead to some collection of the overpayment.

Our April 2005 report made recommendations to address control weaknesses and
inefficiencies in SSA’s process to suspend efforts on Title XVI overpayment collections.
In response to the report, SSA agreed to the following.

 Issue a reminder and, if necessary, further guidance to SSA staff requiring that they
  fully develop and document overpayment suspension decisions, as required by SSA
  policy.

 Instruct Debt Management and field office supervisors to periodically review
  overpayment suspension decisions to ensure staff complies with SSA requirements.

 Ensure all overpayment suspension decisions exceeding established thresholds are
  reviewed and approved by appropriate SSA management officials, as required by
  SSA policy.

 Periodically match debtors’ and representative payees’ earnings to suspended
  overpayments to identify instances in which some repayment of the debt is possible.

 Consider clarifying existing guidance and/or issuing further guidance allowing the
  collection of overpayments from a representative payee who is a parent of a minor
  child/beneficiary.

See Appendix B for the scope and methodology of our review.

RESULTS OF REVIEW
SSA took action on three of the recommendations from our April 2005 report.
According to SSA, funding limitations have delayed development of an automated
system that would address the remaining two recommendations. SSA’s corrective
actions resulted in some improvement in the error rates. However, our current audit
found similar conditions continued to exist. In our previous report, we found that
52 percent of the suspension decisions tested did not have documentation to justify the
action. Also, for those decisions that required management approval, 87 percent had
no evidence of the approval. Our current audit found that the error rates had declined to
33 and 34 percent, respectively. Moreover, our previous report found that 66 percent of
suspension decisions had at least one compliance error. The current review found that
this error rate had declined to 45 percent.

Our current review of 150 Fiscal Year (FY) 2007 Title XVI overpayment suspensions
($3,000 or more) found that SSA staff did not always comply with Agency policies and

2
 For reporting purposes, the term debtor is used to define a recipient of Title XVI payments to which
he/she was not entitled and therefore is indebted to SSA.
Page 3 - The Commissioner


procedures to ensure collection suspensions were appropriate. Specifically, SSA did
not always (1) document the justification for suspension decisions or (2) obtain required
management approval before suspending an overpayment. Additionally, we identified
instances where SSA personnel suspended overpayments when debtors or the debtors’
representative payees had reported earnings that may have enabled some repayment.
Finally, SSA personnel suspended some debts and classified the debtors as unable to
locate or out of the country, but we found no evidence SSA attempted to contact the
debtor or the debtor’s representative payee through their current employer. In total,
67 (44.6 percent) of the 150 suspension decisions reviewed had 1 or more
noncompliance errors. Based on our results, for FY 2007 suspension decisions greater
than $3,000, we estimate for 5,120 cases totaling about $45.9 million, SSA personnel
did not follow policies and procedures when it suspended overpayment collection
efforts.

Additionally, in a separate test of 50 beneficiaries who had multiple overpayment
suspension decisions (totaling $3,000 or more) in a 7-day period, we identified similar
noncompliance issues. For 18 (36 percent) of the 50 beneficiaries, SSA personnel did
not justify or properly approve the suspension decisions. Also, for 2 (4 percent) of the
50 beneficiaries, SSA personnel split the overpayments before processing the
suspension decisions—possibly to circumvent SSA’s required management approval
process. 3 For beneficiaries with multiple suspension decisions in FY 2007, we estimate
for 1,380 cases totaling about $6.3 million, SSA personnel did not follow policies and
procedures when it suspended overpayment collection efforts.

SSA PERSONNEL DID NOT ALWAYS DOCUMENT THEIR DEVELOPMENT OF,
AND JUSTIFICATION FOR, SUSPENDING COLLECTION EFFORTS

SSA personnel did not always document efforts to collect overpayments it subsequently
suspended. SSA’s policies and procedures required that both program service center
and field office staff document the development of, and justification for, a suspension
decision. 4 However, for 49 (32.6 percent) of 150 FY 2007 overpayment suspensions,
SSA personnel did not maintain relevant and sufficient documentation. We estimate
that 3,520 FY 2007 overpayment suspension decisions, totaling about $22.5 million,
were not adequately documented. See Appendix C for our estimation methodology.




3
  SSA, Program Operations Manual System (POMS), SI 02220.005.A. Field office management is
required to review and approve the overpayment decisions through a “2-PIN” process, if the overpayment
suspension is $2,000.01 or more.
4
    SSA, POMS, GN 02210.217 and SI 02220.005.A.
Page 4 - The Commissioner


SSA policies require that personnel take certain actions before suspending collection
efforts on Title XVI overpayments. Documentation should have been available
indicating that the required steps were performed, such as the following.

     SSA requires that debtors who state they are unable to pay submit personal financial
      information for review. Information that should be obtained and analyzed includes
      the debtor’s income, 5 expenses, and other resources. If SSA determines sufficient
      funds are not available, the debt may be suspended for inability to pay. 6 However,
      we did not always find documentation showing analysis of the debtor’s financial
      information.

     When a debt exceeds $3,000 and the debtor refuses to provide financial information
      or is unwilling to pay—SSA is required to check the debtor’s master earnings record
      to determine whether the debtor may have earnings that enable them to make some
      repayment. For the unwilling to repay suspension decisions tested, we did not
      always find evidence that SSA personnel reviewed the debtor’s earnings records.

     To locate a debtor, SSA should rely on information from internal sources and other
      available outside sources, such as credit bureaus, the U.S. Postal Service, and
      State Departments of Motor Vehicles. 7 SSA personnel are required to pursue all
      reasonable leads in locating a debtor. 8 SSA’s Master Earnings File 9 (MEF) can be
      used to locate a debtor. If efforts to locate the debtor are unsuccessful, SSA
      personnel are required to contact the debtor through the employer. 10 However, we
      did not always find evidence of such contacts or attempts to locate the debtors.

In our prior report, we made two recommendations to address these matters: (1) issue
a reminder and, if necessary, further guidance to SSA debt collection staff requiring that
they fully develop and document overpayment suspension decisions; and (2) instruct
Debt Management and field office supervisors to periodically review overpayment
suspension decisions. SSA issued an Administrative Message and revised policy as
recently as April 2009 on documenting the overpayment decisions. However, our
current review found many suspension decisions still lacked documentation to justify the
decision. We believe program service center and field office staffs must be more
diligent when processing these actions.



5
    SSA, POMS, GN 02210.217.
6
    SSA, POMS, GN 02210.217.B.
7
    SSA, POMS, GN 02210.213.B.3.
8
    SSA, POMS, SI 02220.051.A.1.
9
    The MEF is an SSA database that contains Social Security numberholders’ recorded earnings.
10
     SSA, POMS, SI 02220.051.e.
Page 5 - The Commissioner


SSA MANAGEMENT DID NOT ALWAYS DOCUMENT ITS REVIEW OF
SUSPENSION DECISIONS AS REQUIRED

Of the 150 unable to pay, unwilling to pay, or unable to locate or out of the country
suspension decisions reviewed, 47 required management approval. 11 However, we
found no evidence that 16 (34 percent) of the 47 suspension decisions were approved.
Based on our results, we estimate that 1,260 FY 2007 overpayment decisions, totaling
$22.6 million, did not have documented supervisory approvals. See Appendix C for our
estimation methodology.

Of the 16 suspension decisions, 2 exceeded $20,000. In one case, a Debt Specialist at
an SSA program service center improperly suspended collection efforts on a
$106,790 overpayment. According to SSA policy, the Assistant Regional Commissioner
for Processing Center Operations must forward debts over $100,000 to the Department
of Justice for approval to suspend the overpayment. We found no evidence the case
was forwarded to the Department of Justice. In the second case, a Debt Specialist
suspended a $21,085 overpayment. For debts between $20,001 and $100,000, SSA
policy requires that an Assistant Regional Commissioner approve the decision. 12 We
found no evidence of the approval.

Field office staff processed 14 of the 16 suspension decisions that lacked management
approval. Field office management is required to review and approve the overpayment
decisions greater than $2,000 13 through a “2-PIN” 14 process. However, for these
14 suspension decisions, we found no evidence of a second personal identification
number (PIN) that approved the decisions.

Our prior report recommended that SSA management review and approve overpayment
suspension decisions when established dollar thresholds are exceeded. SSA agreed
with this recommendation and explained that the 2-PIN process for field office staff was
implemented in 2004. Nevertheless, suspension decisions over $2,000 were being
processed without a manager’s approval. SSA staff explained that when the 2-PIN
process was first implemented, some decisions were processed without a second PIN,
but SSA had taken actions to rectify the problem.




11
  According to SSA, POMS, GN 02210.217.D.2.b, suspension decisions of $3,000 to $20,000 made at a
program service center do not require management approval if the decision was processed by staff at a
Debt Specialist level or higher. SSA does not have an automated procedure for program service center
management to approve staff decisions made to resolve overpayments.
12
     SSA, POMS, GN 02210.217.D.2.c.
13
     SSA, POMS, SI 02220.005.A.
14
   Staff enter, but do not transmit, the disposition decision. Office management must review the decision.
If approved, management enters a PIN to document the review. The decision is then posted to SSA’s
systems.
Page 6 - The Commissioner


For the 14 cases identified in our current review, SSA staff explained that the
suspension decisions were “controlled” through the Recovery and Collection of
Overpayments System (RECOOP), 15 which is used at the program service center level
or in certain situations by field offices. Staff further explained that when overpayments
are controlled by RECOOP, suspension decisions made at field offices are not subject
to the 2-PIN process. SSA representatives explained that the reasoning behind the
procedure was that SSA had no data to indicate there was either “decisional” or
“documentation” errors in RECOOP overpayment disposition decisions. However, we
found 11 of the 14 suspension decisions had documentation and/or decisional errors.

SSA agreed that policy in effect during our audit period required the 2-PIN approval
process for suspension decisions made at the field office level. However, in May 2009,
SSA’s revised policy officially eliminated the 2-PIN approval process for suspension
decisions controlled by RECOOP. SSA’s statement that this category of suspension
decisions was not error-prone is inconsistent with our audit results. Accordingly, we
encourage SSA to reconsider this revision to its May 2009 policy.

SSA PERSONNEL SUSPENDED OVERPAYMENTS WHEN DEBTORS OR
REPRESENTATIVE PAYEES HAD EARNINGS

Of the 100 cases in which SSA suspended collection efforts because the debtor was
unable or unwilling to repay, we determined 20 (20 percent) debtors or their
representative payees had earnings that may have been sufficient to enable some
repayment of the debt. We are aware that earnings are only part of the debtor’s overall
financial position, as expenses and other assets are also factors and affect SSA’s
decision to suspend an overpayment based on inability to repay. However, based on
our results, we estimate that, for 2,140 FY 2007 suspension decisions totaling about
$13.2 million, SSA did not identify debtors’ or their representative payees’ earnings,
which may have been sufficient to make some repayment of the debt possible. See
Appendix C for our estimation methodology.

Debtors Individually Responsible for Overpayments

For 6 of the 20 suspension decisions, the beneficiary had reported earnings when the
overpayments were suspended. The annual earnings information available to SSA staff
at the time of the suspension decision for these six beneficiaries ranged from $15,416 to
$40,940.




15
  RECOOP is a billing and follow-up system used in SSA’s debt management process. RECOOP
consolidates and controls all debt management activities for certain Title II and Title XVI overpayments.
RECOOP interfaces with SSA’s Supplemental Security Record (Title XVI) system and the billing and
remittance functions of the Debt Management System.
Page 7 - The Commissioner


We acknowledge that, because of annual wage reporting timeframes, current year
earnings are frequently not available to SSA until the third quarter of the following year.
As a result, SSA staff may have had only Tax Year (TY) 2005 earnings available when
some of the FY 2007 suspension decisions were made. However, we determined that
SSA debt collection staff had TY 2005 earnings available for six cases. Further, each of
the six debtors had continued employment for TYs 2005 through 2007 with the same
employer. We believe 3 consecutive years of earnings is an indication of continuing
employment that should have been considered in determining whether the debtors were
capable of some repayment. Table 1 details the debtors’ earnings that were available
to SSA staff when the overpayment was suspended and demonstrates the debtors’
earnings continued over the 3-year period 2005 through 2007.

     Table 1: Earnings Data Available When Overpayments Were Suspended
                                              Reported    Reported         Reported
               Overpayment        Date        Earnings    Earnings         Earnings
                 Amount        Suspended      TY 2005     TY 2006          TY 2007
           1      $3,835        03/15/07       $25,549     $29,920          $37,312
           2       5,209        03/15/07         25,549      29,920          37,312
           3       4,247        03/29/07         38,365      50,537          60,217
           4       3,615        09/24/07         28,196      40,940          43,638
           5       3,590        10/06/06         15,416      18,073          17,519
           6       3,055        10/17/06         15,972      16,949          22,552
           Legend: Earnings shaded in purple indicate the debtor earnings available
           when the overpayment was suspended

Our prior report recommended that SSA periodically match debtor earnings to
suspended overpayment decisions to identify instances in which some repayment of the
debt is possible. SSA responded that administrative wage garnishment was
implemented as a debt collection tool in December 2004. This tool enables SSA to
identify debtor wages and attempt to recover debts from wages. However, for these
six cases, we found no evidence SSA considered or took administrative wage
garnishment actions.
Page 8 - The Commissioner


Representative Payees Who May Have Been Responsible for Overpayments

In 16 16 of the 20 suspension decisions, the debtor’s representative payee, who may
have been responsible for the overpayment, had sufficient earnings to repay some or all
of the debt. For all 16 suspensions, the representative payee was the parent or relative
of a minor child/beneficiary or a mentally disabled adult. Further, the representative
payees were managing the beneficiaries’ funds when the overpayments occurred.
According to SSA policy, personnel may attempt to recover an overpayment from the
beneficiary’s representative payee and should attempt to determine whether the
representative payee is solely or jointly liable for the overpayment. 17 Given that in all
16 cases, the representative payee was the parent or a relative of a minor child or
mentally disabled adult at the time of the overpayment, we believe it is reasonable to
expect the parent or relative was responsible for the overpayment.

Our review of SSA’s earnings records found the representative payees’ most recent
annual earnings available to SSA staff at the time of the suspension decisions ranged
from $12,252 to $70,036. Although the earnings indicate the representative payees
may have been able to repay some of the debt, for the 16 cases, we found no evidence
that SSA evaluated the representative payees’ overall financial conditions to determine
whether they were able to pay. We reviewed SSA’s earnings file for TYs 2005 through
2007 and found all 16 representative payees had earnings in each of the TYs. Further,
when the suspension decisions were made, SSA debt collection staff had available to
them the TY 2005 earnings available for the 16 cases and TY 2006 earnings for 14 of
the 16 cases. The pattern of continued earnings could indicate the representative
payees had some ability to repay the debts.

Table 2 provides details of the representative payee earnings that were available to
SSA staff when the overpayment was suspended and demonstrates that the
representative payees’ earnings generally continued and were consistent over the
3-year period 2005 through 2007.




16
  For two of the suspension decisions, both the beneficiary and the representative payee had earnings.
The beneficiary and representative payee earnings are Items 1 and 2 in Tables 1 and 2.
17
  According to SSA, POMS SI 02201.020 B.3.b., SSA may attempt to recover an overpayment from a
representative payee when the overpaid funds (1) were not used for the overpaid individual's support
and maintenance and (2) were used for the overpaid individual's support and maintenance and the payee
was aware of the facts causing the overpayment.
Page 9 - The Commissioner


              Table 2: Representative Payee Earnings Available When
                         Overpayments Were Suspended
                                          Debtor/
                                       Representative      Reported      Reported       Reported
       Overpayment         Date            Payee           Earnings      Earnings       Earnings
         Amount         Suspended       Relationship       TY 2005       TY 2006        TY 2007
   1         $3,835      03/15/07         Relative           $46,915       $70,036        $70,625
   2          5,209      03/15/07         Relative            46,915        70,036         70,625
   3         10,515      03/15/07          Mother             14,181        18,247         23,494
   4          10,866      06/04/07          Father             23,768        38,644          41,389
   5           4,126      07/18/07         Mother              35,115        43,407          45,981
   6          21,085      05/03/07         Relative            18,141        24,895          25,722
   7           3,095      04/26/07         Relative            55,633        54,369          54,001
   8           6,944      09/06/07         Mother              26,265        19,008          24,907
   9          11,799      05/15/07          Mother             35,398        41,289          39,973
  10            3,277     04/12/07          Mother             17,736        19,133          19,565
  11            6,934     03/06/07          Mother             19,087        16,150          23,063
  12            3,174     04/16/07          Mother             15,646        18,802          30,375
  13            3,571     05/29/07          Father             55,357        12,252          45,594
  14            6,049     10/27/06          Mother             18,180        21,091          20,590
  15            3,170     09/28/07          Mother             25,867        22,446          23,251
  16            5,016     08/03/07          Mother             28,710        16,908          26,643
  Legend: Earnings shaded in purple indicate the debtor earnings available at the time the
  overpayment was suspended.

Because it appeared the parent/relative managed these benefits, we believe it is
reasonable that SSA more aggressively collect overpayments from the representative
payee when they have earnings.

Our prior report made two recommendations related to SSA improving its collection
efforts from beneficiaries who had representative payees with earnings. First, we
recommended that SSA consider clarifying or issuing further guidance for collecting
overpayments from a representative payee who is a parent of a minor child/beneficiary.
Second, we recommended that SSA personnel match representative payees’ earnings
to suspended overpayment decisions to identify instances in which some repayment of
the debt is possible. In responding to both recommendations, SSA stated it planned to
implement the Non-Entitled Debtor (NeD) system to assist in recovering Title XVI debts
from representative payees. However, SSA’s response did not state that an
implementation date had been established for the Title XVI segment of NeD. The
project was proposed for FY 2009 funding but was not approved. The project will be
resubmitted for FY 2010 funding.
Page 10 - The Commissioner


MORE THOROUGH COLLECTION EFFORTS MAY HAVE LOCATED DEBTORS

For 5 (10 percent) of the 50 suspended overpayments in which SSA recorded the
reason for the decision as unable to locate or out of the country, we believe SSA may
have been able to locate the debtors through their, or their representative payees’,
employer. In some cases, SSA attempted to contact the debtor or the debtor’s
representative payee but was unsuccessful. However, we did not find evidence in the
five suspension decisions that SSA attempted to contact the debtors’ or representative
payees’ employers. Accordingly, based on our results, we estimate that, in FY 2007,
120 debtors with unable to locate overpayment suspension decisions totaling about
$749,240 may have been located by contacting the debtors’ or representative payees’
employer.

For one of the five suspension decisions, the beneficiary had earnings in TYs 2005 and
2006 that were available to SSA when the overpayment was suspended. Additionally,
according to SSA’s earnings records, the beneficiary had earnings from the same
employer for TYs 2005 through 2007. The other four beneficiaries were children or an
adult/child who had a parent as their representative payee. Although SSA’s staff
documented that the representative payees could not be located, TY 2005 and
2006 earnings were available when they made suspension decisions for all four of the
representative payees. Further, the four representative payees had earnings from the
same employer for TYs 2005 through 2007. We found no evidence that SSA attempted
to locate the representative payees by contacting their employer.

SSA policy states that personnel should rely on information from internal sources to
locate a debtor. 18 SSA’s Supplemental Security Record (SSR) identifies whether a
beneficiary has a representative payee and, if so, the representative payee’s name and
Social Security number. Additionally, records in the Agency’s MEF indicate whether a
beneficiary or representative payee had earnings posted to his or her record. If so, the
MEF also provides the name and location of the employer who reported these earnings.
According to SSA policy, if previous collection efforts were unsuccessful in locating the
debtor, SSA staff is to contact the employer(s). 19 However, SSA policy does not require
that personnel exhaust all available resources to locate a debtor, 20 therefore, SSA may
not always use the MEF. We believe it is essential that SSA personnel use all internal
sources to locate debtors. Accordingly, SSA should revise its policy to require the use
of all internal sources when locating debtors.

Given that the beneficiary and the representative payees had the same employer for
3 consecutive years, we believe it is reasonable to expect that SSA staff could have
located the beneficiary and representative payees had they contacted the employer.


18
     SSA, POMS, GN 02210.213 B.3 and SI 02220.051.
19
     SSA, POMS, SI 02220.051.e.
20
     SSA, POMS, GN 02210.213.B.3.
Page 11 - The Commissioner


Had SSA been able to locate the debtors or the debtors’ representative payees, it may
have been able to collect some portion of the debt.

In our prior report, we recommended that SSA instruct Debt Management and field
office supervisors to periodically review overpayment decisions to ensure staff comply
with policy. SSA agreed with the recommendation and took corrective actions. In our
prior report, for 18.7 percent of suspension decisions in our unable to locate or out of
the country sample, the debtors or representative payees had earnings histories that
may have enabled SSA staff to locate them. In our current review, the percentage of
suspension decisions with this issue had dropped to 10 percent. It appeared SSA had
made progress in this area. However, we again emphasize that SSA should ensure
that all efforts to locate debtors are exhausted before suspending overpayments.

BENEFICIARIES WITH MULTIPLE SUSPENSION DECISIONS IN A 7-DAY PERIOD

Occasionally, beneficiaries have multiple overpayments. If efforts to collect the
overpayments are unsuccessful, SSA may decide to suspend collection efforts on all of
the overpayments on a single day or over a period of just a few days. We tested 50 of
193 beneficiaries who had multiple decisions in a 7-day period (FY 2007) that totaled
$3,000 or more. Our tests determined whether overpayments were split before the
suspension decisions were processed and the decisions complied with policy.

For 2 of the 50 beneficiaries, the overpayments were split before the suspension
decisions were processed. One beneficiary had two overpayments totaling $2,205 and
$2,047. The $2,205 overpayment was split into $637 and $1,568 suspension decisions,
and the $2,047 was split into $1,800 and $247 decisions. Another beneficiary’s
$3,325 overpayment was split into suspension decisions of $1,500 and $1,825. All
suspension actions occurred at field offices. Also, for both beneficiaries, we found no
evidence that staff attempted the required collection efforts before suspending the
overpayments.

By splitting the overpayments into separate suspension decisions—each under
$2,000.01—management approval was no longer required. According to SSA policy,
field office management is required to approve suspension decisions of $2,000.01 or
more. 21 We estimate in FY 2007, 160 beneficiaries had overpayment decisions split to
dollar thresholds that did not require management approval that totaled $654,960. We
acknowledge the error rate is minimal. However, SSA staff should be cognizant that
overpayments should not be split when taking recovery actions.

Also, for 18 (36 percent) of the 50 beneficiaries, the suspension decisions were neither
justified nor properly approved. Based on our results, we estimate in FY 2007,
1,380 beneficiaries had multiple suspension decisions totaling $6.30 million that did not
comply with policy.



21
     SSA, POMS, SI 02220.005.
Page 12 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA took action on three of the recommendations in our prior report. The Agency
agreed with our other two recommendations, but funding limitations delayed
development of an automated system that would address the recommendations.
Although SSA completed corrective actions on three of the recommendations, we still
found similar conditions identified in the prior report.

SSA did not always (1) document the justification for suspending overpayment
collection efforts or (2) obtain the required management approval before suspending an
overpayment. On occasion, SSA personnel suspended collection efforts when debtors
or the debtors’ representative payees had reported earnings that may have enabled
some repayment. Also, SSA personnel suspended collections of some debts and
classified the debtors as unable to locate or out of the country even though we did not
find evidence SSA attempted to contact the debtor or the debtor’s representative payee
through his or her current employer.

Finally, we found similar issues with beneficiaries who had multiple decisions to
suspend overpayment collections in a 7-day period. For 18 of the 50 beneficiaries, the
suspension decisions were either not justified or properly approved.

To avoid duplication, we are not restating the unimplemented recommendations from
our previous report. However, we reiterate the need for SSA to ensure staff complies
with SSA requirements by requiring Debt Management supervisors to periodically
review decisions to suspend collection of overpayments; ensure all overpayment
suspension decisions exceeding established thresholds are reviewed and approved by
appropriate SSA management officials, as required by policy; and periodically match
debtors’ and representative payees’ earnings to suspended overpayments to identify
instances in which some repayment of the debt is possible.

Additionally, we recommend that SSA:

1. Continue to urge staff compliance with existing policy when suspending Title XVI
   overpayments and hold accountable those employees who do not follow established
   criteria.

2. Consider revising its May 2009 policy to require the 2-PIN process for suspension
   decisions controlled by RECOOP.

3. Revise policy to require the use of all internal resources to locate a debtor.
Page 13 - The Commissioner


AGENCY COMMENTS AND OIG RESPONSE
The Agency agreed with our recommendations. The full text of the Agency’s comments
is included in Appendix D.


                                            S
                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
FY       Fiscal Year
MEF      Master Earnings File
NeD      Non-Entitled Debtor
PIN      Personal Identification Number
POMS     Program Operations Manual System
RECOOP   Recovery and Collection of Overpayments System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
TY       Tax Year
U.S.C.   United States Code
                                                                        Appendix B

Scope and Methodology
We reviewed 200 randomly selected overpayment suspension decisions from
Fiscal Year (FY) 2007 that were in suspended status as of July 3, 2008. We sampled
50 suspension decisions over $3,000 from each of the 3 suspension categories:
(1) unable to locate or out of the country, (2) unable to repay, and (3) unwilling to repay.
We also randomly selected 50 beneficiaries who had multiple suspension decisions in a
7-day period that totaled $3,000 or more. We reviewed each overpayment suspension
decision for appropriateness as defined in the Program Operations Manual System. We
also

   reviewed applicable Federal laws and regulations, as well as SSA’s policies and
    procedures, that govern overpayment suspensions under Title XVI of the Social
    Security Act;

   reviewed prior Office of the Inspector General reports that pertain to Supplemental
    Security Income overpayments;

   queried and reviewed overpayment suspension information from SSA’s Modernized
    Supplemental Security Income Claims System, Modernized Development
    Worksheet, and Debt Management System; and

   queried and reviewed debtors’ and representative payees’ earnings data from SSA’s
    Master Earnings File.

We performed our audit work in Atlanta, Georgia, and Baltimore, Maryland, from
July 2008 to March 2009. The electronic data used for this audit were sufficiently
reliable to meet the objectives of our audit. The entities audited were the Offices of the
Deputy Commissioners for Budget, Finance and Management; Operations; and
Retirement and Disability Policy. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.
                                                                   Appendix C

Sampling Methodology and Results
Sampling Methodology
In total, we reviewed 200 randomly selected overpayment suspension decisions from
Fiscal Year (FY) 2007 that remained in suspended status as of July 3, 2008. Our
review consisted of 50 suspension decisions over $3,000 from each of the 3 suspension
categories: (1) unable to locate or out of the country, (2) unable to repay, or (3)
unwilling to repay. We also randomly selected 50 beneficiaries who had multiple
suspension decisions in a 7-day period that totaled $3,000 or more.

We selected the samples from data queried from segment 15 of the Supplemental
Security Record (SSR). The SSR is divided into 20 segments based on the last 2 digits
of the beneficiaries’ Social Security numbers. SSA has concluded the results
determined from any 1 segment are representative of the entire 20 segments in the
SSR.

Our audit tested more than one control attribute for each suspension decision. For
example, we determined whether each decision was (1) adequately documented to
evidence the reasoning/justification for the suspension and (2) approved by the
appropriate level of management. As a result, some suspensions have more than one
reportable issue and are included in one or more of the Sampling Results sections
below. However, when estimating the overall number of suspension decisions with
errors, we counted only one error for each case.




                                         C-1
Supplemental Security Record - Segment 15 Data

                             Suspension Decisions—$3,000 or Greater
                                                                                                   Percent of
                                             Number of         Percent of         Dollars of
                                                                                                  Suspension
                Total Number                Suspensions       Suspensions        Suspensions
Suspension                       Total                                                              Dollars
                      of                     Equal to or       Equal to or        Equal to or
 Decision                       Dollars                                                           Equal to or
                Suspensions                 Greater Than      Greater Than       Greater Than
                                                                                                    Greater
                                               $3,000            $3,000             $3,000
                                                                                                  Than $3,000
Unwilling to
                   1,581       $4,794,799        249              15.8            $1,853,300          38.7
Pay
Unable to
                   2,585       $4,129,563        331              12.8            $2,453,458          59.4
Repay
Unable to
Locate/Out
                    767         $960,577          63                8.2            $425,710           44.3
of The
Country


                       Beneficiaries with Multiple Suspension Decisions
                        in a 7-Day Period that Totaled $3,000 or Greater
                                                                                                Percent of
                                 Number of          Percent of              Dollars of
Total Number                                                                                    Beneficiary
                                Beneficiaries      Beneficiaries           Beneficiaries
      of                                                                                       Dollars with
                    Total       with Multiple      with Multiple           with Multiple
Beneficiaries                                                                                    Multiple
                   Dollars      Suspensions        Suspensions             Suspensions
with Multiple                                                                                  Suspensions
                               Totaling $3,000    Totaling $3,000         Totaling $3,000
Suspensions                                                                                   Totaling $3,000
                                 or Greater         or Greater              or Greater
                                                                                                or Greater

     3,281        $3,176,278        193                 5.8                  $968,887              30.5




                                                 C-2
Population and Sample Selection

                     Suspension Decisions—$3,000 or Greater
                                         Population of   Population    Sample     Sample
          Suspension Decision             Suspension      Dollars       Size      Dollars
                                           Decisions
Unwilling to Pay                             249         $1,853,300      50      $348,666
Unable to Repay                                331       $2,453,458      50      $424,268
Unable to Locate/Out of the Country            63         $425,710       50      $336,615


                Beneficiaries with Multiple Suspension Decisions
                 in a 7-Day Period that Totaled $3,000 or Greater
                                         Population of   Population   Sample     Sample
             Beneficiaries
                                         Beneficiaries    Dollars      Size      Dollars
Multiple suspension decisions within a
                                               193       $968,887       50      $224,486
7-day period

Sampling Results

Overall Results – Suspension Decisions in Which At Least One Attribute Did Not
Comply with SSA’s Policies and Procedures

                    Suspension Decisions—$3,000 or Greater
         Total Estimated Suspension Decisions – At Least One Attribute
               Did Not Comply with SSA’s Policies and Procedures
                                   Non-Compliant     Estimate to   Estimate to
       Suspension Decision           Suspension        Universe     Universe
                                      Decisions      (Decisions)    (Dollars)
Unwilling to Pay                               29                   2,880     $22,651,040
Unable to Repay                                12                   1,580     $19,186,040
Unable to Locate/Out of the
                                               26                     660      $4,118,320
Country
                                Total          67                   5,120     $45,955,400




                                         C-3
                Beneficiaries with Multiple Suspension Decisions
                 in a 7-Day Period that Totaled $3,000 or Greater
             Total Estimated Beneficiaries – At Least One Attribute
              Did Not Comply with SSA’s Policies and Procedures
                                             Non-                       Estimate
                                                        Estimate to
                                          Compliant                        to
                                                          Universe
             Beneficiaries               Suspension                     Universe
                                                        (Decisions)
                                          Decisions                     (Dollars)
Multiple Suspension Decisions in a
7-Day Period that Totaled $3,000 or                18          1,380   $6,326,840
Greater

                    Suspension Decisions—$3,000 or Greater
              Unwilling to Pay Overpayment Suspension Decisions
                                                       Decisions           Dollars
Total Segment Population                                     249        $1,853,300
Sample Size                                                   50         $348,666
Suspension Decisions in Which at Least One Attribute
                                                              29         $213,057
Did Not Comply with Policies and Procedures
Percentage of Sample                                       58.00             61.11
Estimate to Population                                       144        $1,132,552
Estimate to the Universe (20 Segments)                     2,880       $22,651,040




                                        C-4
                     Suspension Decisions—$3,000 or Greater
               Unable to Repay Overpayment Suspension Decisions
                                                             Decisions         Dollars
Total Segment Population                                           331      $2,453,458
Sample Size                                                          50      $424,268
Suspension Decisions in Which at Least One Attribute
                                                                     12      $165,875
Did Not Comply with Policies and Procedures
Percentage of Sample                                              24.00          39.10
Estimate to Population                                               79      $959,302
Estimate to the Universe (20 Segments)                            1,580    $19,186,040


                     Suspension Decisions—$3,000 or Greater
   Unable to Locate or Out of the Country Overpayment Suspension Decisions
                                                             Decisions         Dollars
Total Segment Population                                             63       $425,710
Sample Size                                                          50       $336,615
Suspension Decisions in Which at Least One Attribute Did
                                                                     26       $162,814
Not Comply with Policies and Procedures
Percentage of Sample                                              52.00          48.37
Estimate to Population                                               33       $205,916
Estimate to the Universe (20 Segments)                              660     $4,118,320


                                   Beneficiaries
     Multiple Suspension Decisions in a 7-Day Period Totaling $3,000 or More
                                                           Beneficiaries       Dollars
Total Segment Population                                            193       $968,887
Sample Size                                                          50       $224,486
Beneficiaries in Which at Least One Suspension
                                                                     18        $73,284
Decision Did Not Comply with Policies and Procedures
Percentage of Sample                                              36.00          32.65
Estimate to Population                                               69       $316,342
Estimate to the Universe (20 Segments)                            1,380     $6,326,840


                                         C-5
SSA Did Not Always Maintain Documentation of Its Development of and
Justification for Suspending Collection Efforts

                   Suspension Decisions—$3,000 or Greater
    Total Estimated Suspension Decisions – SSA’s Collection Efforts Did Not
          Document the Justification for Suspending Collection Efforts
                                   Undocumented Estimate to        Estimate to
      Suspension Decision            Suspension      Universe        Universe
                                      Decisions     (Decisions)      (Dollars)
Unwilling to Pay                                19         1,900       $14,125,860
Unable to Repay                                  8         1,060        $4,833,320
Unable to Locate/Out of the
                                                22           560        $3,578,520
Country
                              Total             49         3,520       $22,537,700

                    Suspension Decisions—$3,000 or Greater
              Unwilling to Pay Overpayment Suspension Decisions
                                                        Decisions          Dollars
Total Segment Population                                      249       $1,853,300
Sample Size                                                    50         $348,666
Suspension Decisions Not Documented                            19         $132,865
Percentage of Sample                                         38.00           38.11
Estimate to Population                                         95         $706,293
Estimate to the Universe (20 Segments)                       1,900 $14,125,860

                    Suspension Decisions—$3,000 or Greater
              Unable to Repay Overpayment Suspension Decisions
                                                        Decisions          Dollars
Total Segment Population                                      331       $2,453,458
Sample Size                                                    50         $424,268
Suspension Decisions Not Documented                                8       $41,779
Percentage of Sample                                         16.00            9.85
Estimate to Population                                         53         $241,666
Estimate to the Universe (20 Segments)                       1,060      $4,833,320




                                         C-6
                    Suspension Decisions—$3,000 or Greater
  Unable to Locate or Out of the Country Overpayment Suspension Decisions
                                                      Decisions          Dollars
Total Segment Population                                       63       $425,710
Sample Size                                                    50       $336,615
Suspension Decisions Not Documented                            22       $141,479
Percentage of Sample                                         44.00         42.03
Estimate to Population                                         28       $178,926
Estimate to the Universe (20 Segments)                        560     $3,578,520

SSA Did Not Always Maintain Documentation of Management Review of
Suspension Decisions as Required

                    Suspension Decisions—$3,000 or Greater
            Total Estimated Suspension Decisions – SSA Management
 Did Not Document Their Review for Suspension Decisions Greater than $3,000
                                     Unsupported    Estimate to  Estimate to
        Suspension Decision          Suspension      Universe     Universe
                                      Decisions     (Decisions)   (Dollars)
Unwilling to Pay                                7            700  $8,595,600
Unable to Repay                                   3           400    $13,209,420
Unable to Locate/Out of the Country               6        160          $834,400
                               Total             16      1,260       $22,639,420

                    Suspension Decisions—$3,000 or Greater
              Unwilling to Pay Overpayment Suspension Decisions
                                                      Decisions          Dollars
Total Segment Population                                      249     $1,853,300
Sample Size                                                    50      $348,666
Suspension Decisions that Lacked Evidence of a
                                                                7       $80,840
Management Review
Percentage of Sample                                         14.00         23.19
Estimate to Population                                         35      $429,780
Estimate to the Universe (20 Segments)                        700     $8,595,600


                                         C-7
                    Suspension Decisions—$3,000 or Greater
              Unable to Repay Overpayment Suspension Decisions
                                                      Decisions             Dollars
Total Segment Population                                     331         $2,453,458
Sample Size                                                   50          $424,268
Suspension Decisions that Lacked Evidence of a
                                                               3          $114,201
Management Review
Percentage of Sample                                         6.00             26.92
Estimate to Population                                        20          $660,471
Estimate to the Universe (20 Segments)                       400        $13,209,420

                    Suspension Decisions—$3,000 or Greater
  Unable to Locate or Out of the Country Overpayment Suspension Decisions
                                                       Decisions            Dollars
Total Segment Population                                        63         $425,710
Sample Size                                                     50         $336,615
Suspensions When Debtor or Representative Payee
                                                                    6       $32,998
Could Have Been Located Through Their Employer
Percentage of Sample                                         12.00             9.80
Estimate to Population                                              8       $41,720
Estimate to the Universe (20 Segments)                         160         $834,400

SSA Personnel Suspended Overpayments When Debtors or Representative
Payees had Earnings

                   Suspension Decisions—$3,000 or Greater
                    Total Estimated Suspension Decisions–
                 Debtors or Representative Payees had Earnings
                                    Unsupported     Estimate to         Estimate to
       Suspension Decision          Suspension       Universe            Universe
                                     Decisions      (Decisions)          (Dollars)
Unwilling to Pay                               16          1,600        $11,520,120
Unable to Repay                                   4           540        $1,717,420
                             Total               20       2,140         $13,237,540




                                       C-8
                    Suspension Decisions—$3,000 or Greater
              Unwilling to Pay Overpayment Suspension Decisions
                                                    Decisions              Dollars
Total Segment Population                                 249            $1,853,300
Sample Size                                               50             $348,666
Suspensions when Debtors or Representative Payees
                                                          16             $108,349
had Earnings
Percentage of Sample                                    32.00                31.08
Estimate to Population                                    80             $575,006
Estimate to the Universe (20 Segments)                  1,600          $11,520,120


                    Suspension Decisions—$3,000 or Greater
              Unable to Repay Overpayment Suspension Decisions
                                                        Decisions          Dollars
Total Segment Population                                        331     $2,453,458
Sample Size                                                      50      $424,268
Suspensions When Debtors or Representative Payees had
                                                                  4        $14,833
Earnings
Percentage of Sample                                            8.00          3.50
Estimate to Population                                           26        $85,871
Estimate to the Universe (20 Segments)                          540     $1,717,420




                                         C-9
More Thorough Collection Efforts May Have Located Debtors

                   Suspension Decisions—$3,000 or Greater
   Unable to Locate or Out of the Country Overpayment Suspension Decisions
                                                        Decisions        Dollars
 Total Segment Population                                          63   $425,710
 Sample Size                                                       50   $336,615
 Suspensions When Debtor or Representative Payee
                                                                    5    $29,617
 Could Have Been Located Through Their Employer
 Percentage of Sample                                        10.00          8.80
 Estimate to Population                                             6    $37,462
 Estimate to the Universe (20 Segments)                        120      $749,240

SSA Personnel Split the Overpayment to Circumvent Management Approval

                Beneficiaries with Multiple Suspension Decisions
                   in 7–Day Period that Totaled $3000 or Greater
                                                      Beneficiaries      Dollars
 Total Segment Population                                      193      $968,887
 Sample Size                                                       50   $224,486
 Beneficiaries with Split Overpayment Suspension
                                                                    2     $7,578
 Decisions
 Percentage of Sample                                          4.00         3.38
 Estimate to Population                                             8    $32,748
 Estimate to the Universe (20 Segments)                        160      $654,960




                                       C-10
Distribution of Reported Dollar Findings to the Applicable Recommendations

          Description of Finding               Recommendation      Dollars
Suspension decisions with 1 or more
noncompliance errors (from the sample of 150     Not applied      $45,955,400
suspension decisions). See page 3.
Add: Suspension decisions with 1 or more
noncompliance errors (from the sample of 50      Not applied       $6,326,840
suspension decisions). See page 3.
Total: Suspension decisions with 1 or more
noncompliance errors (from the combined          Not applied      $52,282,240
sample of decisions 200). See page 3.
Less: SSA management did not document its
                                               Recommendation 2   $22,639,420
review of suspension decisions. See page 5.
Net: Suspension decisions with one or more
noncompliance error (from the combined         Recommendation 1   $29,642,820
sample of decisions 200).




                                       C-11
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:        August 20, 2009                                                       Refer To: S1J-3

To:          Patrick P. O'Carroll, Jr.
             Inspector General

From:        Margaret J. Tittel /s/ Mike Gallagher for
             Acting Chief of Staff

Subject:     Office of the Inspector General (OIG) Draft Report, “Follow-Up: The Social Security
             Administration’s Controls Over Suspending Collection Efforts on Title XVI Overpayments”
             (A-04-09-19039)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                           D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
SUSPENDING COLLECTION EFFORTS ON TITLE XVI OVERPAYMENTS”
(A-04-09-19039)

Our responses to your specific recommendations are as follows.

Recommendation 1

Continue to urge staff compliance with existing policy when suspending Title XVI
overpayments and hold accountable those employees who do not follow established criteria.

Comment

We agree. We recently released reminders to the field offices of the policy they should follow
when making overpayment suspension decisions. We are developing additional overpayment
training for release in December 2009 and will explore ways to hold employees accountable for
not following proper overpayment suspension procedures.

Recommendation 2

Consider revising the May 2009 policy to require the 2-PIN process (management approval) for
suspension decisions controlled by RECOOP.

Comment

We agree. We will investigate the feasibility of requiring a 2-PIN process for suspension
decisions controlled by RECOOP. We expect to make a decision by November 2009.

Recommendation 3

Revise policy to require the use of all internal resources to locate a debtor.

Comment

We agree. We will amend our policy to emphasize the importance of exhausting all resources
when attempting to locate a debtor. We expect to issue a revised policy by November 2009.




                                                 D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Valerie Ledbetter, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-09-19039.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
